la
APPENDIX A
No. 19-4010
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
VINCENT LUCAS,
Plaintiff-Appellant,
v.
TRICIA MOORE, in an individual capacity, et al,
Defendants-Appellees.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF OHIO
FILED Jan 20, 2021
DEBORAH S. HUNT, Clerk
ORDER
Before: MOORE, ROGERS, and GRIFFIN, Circuit
Judges.
Vincent Lucas, a pro se Ohio resident, appeals a
district court judgment dismissing in part and
granting summary judgment in his action filed under
the Driver’s Privacy Protection Act of 1994 (“DPPA”),
18 U.S.C. § 2721. This case has been referred to a
panel of this court that, upon examination,
unanimously agrees that oral argument is not needed.
See Fed. R. App. P. 34(a).

2a
In 2018, Lucas sued Licking County, Ohio; Licking
County Municipal Court Clerk of Court Marcia J.
Phelps; the City of Newark, Ohio; and Newark
Assistant Prosecutor Tricia Moore (Lucas alleged that
Moore was an assistant prosecutor for Licking
County).1 Lucas claimed that the defendants violated
the DPPA by making personal information contained
in his Bureau of Motor Vehicles (“BMV”) driver’s
record available to the public. Lucas alleged that, in
2014, he was charged with a misdemeanor traffic
offense and that he demanded a trial to dispute the
charge. As part of the summary report of Lucas’s case,
Phelps entered Lucas’s name, address, and date of
birth onto the Licking County Municipal Court
website. During the pretrial proceedings, Moore
responded to a discovery request from Lucas by
sending him a copy of his BMV report and filing a copy
of her discovery response with the Licking County
Municipal Court. The BMV report contained Lucas’s
social security number, driver’s license number, and
address, and the filing of the discovery response
caused the BMV record to become a public record.
Lucas claimed that: (1) Phelps violated the DPPA by
making his name, address, and date of birth available
on the court website; (2) Licking County and Newark
were vicariously liable because they could have
demanded that Lucas’s personal information be
removed from the municipal court website; and (3)
Moore violated the DPPA by making his BMV record
available to the public. Lucas sought monetary and
injunctive relief.
Licking County moved to dismiss the complaint
pursuant to Federal Rule of Civil Procedure 12(b)(6),
1 The parties dispute whether Moore is an employee of Licking
County or Newark. But the identity of Moore’s employer is
unnecessary to the disposition of Lucas’s appeal.

3a
arguing that the DPPA does not create a cause of
action against it for failing to force Phelps to remove
information from the court’s website. Lucas moved for
summary judgment against Phelps, and Phelps filed a
response and cross-motion for summary judgment.
The district court granted Licking County’s
motion to dismiss, concluding that Lucas’s name and
address were entered onto the court’s website for
purposes that were not prohibited by the DPPA, citing
18 U.S.C. § 2721(b)(1) and (b)(4). The district court
also noted that a driver’s “date of birth” is not personal
information under the statute pursuant to 18 U.S.C. §
2725(3) and (4).
Lucas then moved to amend his complaint,
arguing that the district court erroneously concluded
that an individual’s date of birth does not constitute
personal information covered by the DPPA. He also
sought to add allegations supporting his claims that
the DPPA should be interpreted to protect information
and prevent criminals from utilizing license plate
numbers to search court databases in order to discover
the names and addresses of potential victims. Finally,
he sought to add allegations supporting his claim that
Moore was employed by Licking County because she
received part of her salary from Licking County.
Moore and Newark moved for summary judgment.
Lucas filed cross-motions for summary judgment.
The district court granted summary judgment for
the defendants and denied Lucas’s motions for
summary judgment. The district court concluded
that: (1) Phelps was entitled to absolute quasi-judicial
immunity from Lucas’s claims for damages, and Lucas
was not entitled to injunctive relief against her
because her disclosure of information was permissible
pursuant to § 2721(b)(1) and (b)(4); (2) Moore was
entitled to prosecutorial immunity from Lucas’s

4a
claims for damages, and Lucas was not entitled to
injunctive relief against her because the disclosure
was permissible pursuant to § 2721(b)(1) and (b)(4);
and (3) even if Newark could be held vicariously liable
under the DPPA, it was entitled to summary
judgment because neither Phelps nor Moore violated
the DPPA. The district court also denied Lucas’s
motion to amend his complaint. Lucas now appeals.
Rule 12(b)(6) Dismissal
We review de novo a district court’s dismissal
under Federal Rule of Civil Procedure 12(b)(6).
Winget v. JPMorgan Chase Bank, N.A., 537 F.3d 565,
572 (6th Cir. 2008). To avoid dismissal for failure to
state a claim, “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Id. at 678.
“The DPPA regulates the disclosure of personal
information contained in the records of state motor
vehicle departments (DMVs). Disclosure of personal
information is prohibited unless for a purpose
permitted by an exception listed in 1 of 14 statutory
subsections.” Maracich v. Spears, 570 U.S. 48, 52
(2013) (citing 18 U.S.C. §§ 2721(b)(l)-(14)); see Reno v.
Condon, 528 U.S. 141, 143-44 (2000). Personal
information is defined as “information that identifies
an individual, including an individual’s photograph,
social security number, driver identification number,
name, address (but not the 5-digit zip code), telephone
number, and medical or disability information.” 18
U.S.C. § 2725(3). Two of the express exceptions to

5a
impermissible disclosure are “use by any government
agency, including any court or law enforcement
agency, in carrying out its functions” or “use in
connection with any civil, criminal, administrative, or
arbitral proceeding in any . . . local court or agency.”
18 U.S.C. § 2721(b)(1) and (4).
The district court did not err when it dismissed
Licking County from Lucas’s action. Lucas sought to
hold Licking County vicariously liable for Phelps’s
entry of his name, address, and date of birth on the
court’s website. But, as explained above, a driver’s
personal information may be disclosed by a court in
connection with a criminal proceeding. Lucas’s
information was entered as part of the summary
report of his traffic case. Therefore, the district court
properly concluded that Licking County was not liable
for a violation of the DPPA, even if vicarious liability
could be imposed, and regardless of whether a driver’s
date of birth is protected information under the DPPA.
Summary Judgment
We review de novo the district court’s grant of
summary judgment. Younis v. Pinnacle Airlines, Inc.,
610 F.3d 359, 361 (6th Cir. 2010). Summary judgment
is appropriate when the evidence presented shows
“that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a).
The district court properly determined that
Phelps was entitled to quasi-judicial immunity on
Lucas’s claim for damages. “[A] court clerk who
performs tasks that are an integral part of the judicial
process is entitled to absolute quasi-judicial immunity
from suits for damages.” Gallagher v. Lane, 75 F.
App’x 440, 441 (6th Cir. 2003) (citing Johnson v.
Turner, 125 F.3d 324, 333 (6th Cir. 1997)); Foster v.
Walsh, 864 F.2d 416, 417-18 (6th Cir. 1988)). Lucas

6a
argues that Phelps’s actions were merely
administrative and not part of the judicial process.
But because Phelps was acting in her capacity as
Licking County Municipal Court Clerk of Court, and
the court was not acting in the absence of jurisdiction,
Phelps is entitled to quasi-judicial immunity. See
Mireles v. Waco, 502 U.S. 9, 11-12 (1991) (per curiam).
The district court also properly determined that
Moore was entitled to prosecutorial immunity on
Lucas’s claim for damages. Prosecutors have absolute
immunity for actions taken within the scope of their
duties. Imbler v. Pachtman, 424 U.S. 409, 430—31
(1976). They are not immune for administrative or
investigative acts. Holloway v. Brush, 220 F.3d 767,
774-75 (6th Cir. 2000) (en banc). The test for absolute
prosecutorial immunity turns on “the nature of the
function performed, not the identity of the actor who
performed it.” Buckley v. Fitzsimmons, 509 U.S. 259,
269 (1993) (quoting Forrester v. White, 484 U.S. 219,
229 (1988)). Moore’s response to Lucas’s discovery
request falls under her duty as the prosecutor in the
trial of his traffic violation, and she filed a copy of the
discovery response in connection with that duty
pursuant to her agency’s practice of filing a copy of
discovery responses with the court in the event of a
discovery dispute.
Even if Phelps and Moore were not immune, they
would be entitled to summary judgment on Lucas’s
claims for damages for the same reason that the
district court properly held that they were entitled to
summary judgment on Lucas’s claims for injunctive
relief. Despite Lucas’s arguments that the entry of his
personal information onto the court’s website and the
filing of an unsealed copy of his BMV report violated
the DPPA, the district court properly concluded that
Phelps’s and Moore’s actions constituted permissible

7a
uses of Lucas’s information pursuant to § 2721(b)(1)
and (4). Lucas’s argument that Moore’s filing of an
unredacted copy of his BMV report violated Ohio law,
see Ohio Sup. R. 45(D)(1), is beside the point. Ohio law
is irrelevant to the issue of whether Moore violated the
DPPA when she engaged in a permissible use of
information obtained from his BMV record.
Finally, the district court properly determined
that Newark was entitled to summary judgment on
Lucas’s claims because neither Phelps nor Moore
violated the DPPA.
Motion to Amend Complaint
The denial of a motion to amend a complaint is
reviewed for an abuse of discretion. See Ziegler v.
Aukerman, 512 F.3d 777, 786 (6th Cir. 2008). Leave
to amend should be freely granted “when justice so
requires.” Fed. R. Civ. P. 15(a)(2). But “[a] motion to
amend a complaint should be denied if the
amendment is brought in bad faith, for dilatory
purposes, results in undue delay or prejudice to the
opposing party, or would be futile.” Crawford v.
Roane, 53 F.3d 750, 753 (6th Cir. 1995). Here, Lucas
sought to amend his complaint to reassert his
argument that his date of birth constituted personal
information under the DPPA and to add allegations
that (1) BMV information should be protected by the
DPPA in order to prevent criminals from searching for
potential victims and (2) Moore was an employee of
Licking County. For the reasons expressed above, the
district court properly concluded that amendment
would be futile because the additions Lucas sought to
make do not address the court’s determination that
there was no violation of the DPPA pursuant to §
2721(b)(1) and (b)(4).
Accordingly, we AFFIRM the district court’s
judgment.

8a
ENTERED BY ORDER OF THE COURT
s/Deborah S. Hunt________
Deborah S. Hunt, Clerk

9a
APPENDIX B
412 F.Supp.3d 749 (2019)
Filed September 12, 2019.
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Vincent Lucas, Plaintiff,
v.
Tricia Moore, et al., Defendants.
Case No. 2:18-cv-582.
OPINION AND ORDER
Vincent Lucas (“Plaintiff’), proceeding without
the assistance of counsel, brings this action under the
Driver's Privacy Protection Act (“DPPA”), 18 U.S.C. §§
2721 et seq., against Tricia Moore (“Moore”), Marcia J.
Phelps (“Phelps”), and the City of Newark, Ohio (“the
City”) (collectively, “Defendants”).1 Plaintiff moved for
summary judgment against Phelps, ECF No. 16, and
Phelps cross-moved for summary judgment on
Plaintiff's claims against her, ECF No. 22. Moore and
the City also moved for summary judgment, ECF No.
45, and Plaintiff cross-moved for summary judgment
on his claims against both, ECF Nos. 48, 49. For the
following reasons, the Court DENIES Plaintiffs
motions for summary judgment and GRANTS
Defendants' motions for summary judgment.
1 The Court dismissed Defendant Licking County, Ohio, from this
case in an Opinion and Order issued on March 21, 2019. Op. &
Order, ECF No. 32.

O^'-EGL y/1- 3.T
<w?z it? nu Qbiwrou auq qi^gt. mm&q ou yjatc.jj jj* r,0jO' O^' rfr
i IP©
qi-u3i««;q ^eoqtruf rrcFpte ConuA' OPT0’ pow *jns
Dopngsupc*,, mouom pi amuurjiA 'piq^roGUG
rooppua pi smuunriV ‘Irtq&roGup euq OKVMXS
p]joMiw& lossoua' ipe Qorti.t DEMIE8 bpnpr&H
ou pu? cpnme afisnuap popp' ECE M0fe' f# 49‘ L01{o* sniq kJffrotqj. cioag-iuoAoq pi aimmiui'A Impure up
ppe c*tf- yF° njOAeq pi ernmnau. Inq&njcujp* egE PI0'
fciyP7^TllH cjinme ufcmusp jjgV ^qE M°* 55' T/I°oi« uuq
EP^jbs cio88-ujoA6q pi (tammmJi luq&raenp ou
sumnmX luq&iuoijp atesnupq |>pG]b8‘ pjGE M°* 16* «uq
Cp.XJ (cojpr.pTAG]?.4 „D6pwquupi))-, jjjuwpjjjrooAeq pi
Bpejbs C.BjJGfba,)' uuq ppc CpX op yfitws.jv opio (.,tpe
5A5J °f
uSsrafef j^iicp j/poit, Gjqooiej' yp^-cp 1'
DUA6Itfe fjI.IAUCAy.OfGCITOU
LUhbVJ' IX fi'8'C' §2
ppe ueppfsuce o^coun^oj' piwSa ppi? ucppu /fuqui ppo
/{Ufieuf pucua Cbly!IJfMP.»)' bwwiWsqroK Mippor/p
OMMIOE1 YMD OKDEK
G®86 M°* 5:I8-^'685'
jpucp gqooie*

up* jjepiKpw^sr
AT

/^incGwq pncffe* kiaio^ijx*
EV8XEKM DIAIEIOX
800XHEKM DI8XKICX Oh OHIO
XIMIXED 8XYXE8 BI8XKICX COflKX
E?pq gobpmp&i js* 5019’
'OS E*anJbb*gq
(S0J3)
YBBEMD1X B

a»

10a
Finally, Plaintiff moved for leave to amend his
Complaint, ECF No. 36. For reasons explained below,
the Court DENIES that motion as well.
I. FACTS
On July 4, 2014, Plaintiff was charged with a
minor misdemeanor traffic offense. Compl. f 5, ECF
No. 1. Plaintiff contested the violation, and the case
went to trial. The present case stems from information
about Plaintiff that was posted to the Municipal
Court's public docket related to his criminal traffic
case. For ease of readability, the Court discusses
below the pertinent facts and the basis for Plaintiffs
claims against Phelps and Moore separately.
A. Phelps
Plaintiff’s traffic ticket, as are all traffic tickets
issued in Licking County, was filed with the Clerk of
Court at the Licking County Municipal Court
(“Municipal Court”) for further processing. Phelps Aff.
1-2, ECF No. 22-2. Phelps, as Clerk of Court, then
entered data from Plaintiff's traffic ticket—including
his name, address, and date of birth—into the
Municipal Court's case management system. That
data became part of Plaintiffs online, publicly
viewable case docket on the Municipal Court's
website. Id. at 1.
The Municipal Court states that it maintains the
online docket for the benefit of the public, “so a
defendant can access their case file, make payments,
see hearing dates, or obtain other information about
the case.” Id. Individuals may search for a case docket
using an offender's name, address, date of birth,
license plate number, or traffic ticket number. Ex. F.,
ECF No. 16-3. A vehicle's license plate number is not
displayed on the public docket; but an individual's

11a
name, address, and date of birth are displayed on the
public docket. Phelps Aff. 2, ECF No. 22-2; Ex. E, ECF
No. 16-2. Phelps acknowledges that she, as Clerk of
Court, “determines [the] information that will be
accessible on the [Municipal Court's] website.”
Interrogatories 5, ECF No. 16-6.
Plaintiff brings this action against Phelps,
alleging that by making his personal information
publicly available through the Municipal Court's
website, she violated the DPPA, a statute that
regulates disclosure of an individual's personal
information stored in a state motor vehicle record. See
generally Compl., ECF No. 1. He seeks damages and
injunctive relief against Phelps and the City of
Newark as Phelps’s employer. Id. at 7-8.
B. Moore
Plaintiff's traffic case was prosecuted by Tricia
Moore, assistant Law Director for the City of Newark.
Moore Dep. 9:7-10, ECF No. 41; Lucas Dep. 26:23-24,
ECF No. 44. During the course of proceedings,
Plaintiff requested discovery. Compl. 2, ECF No. 1. In
response, Moore produced discovery to Plaintiff and
filed a copy of her discovery response with the
Municipal Court. Moore Dep. 37:1-19, ECF No. 41.
The discovery documents contained a one-page copy of
Plaintiffs motor vehicle record setting forth Plaintiffs
history of traffic violations. Pl.'s Mot. Summ. J., Ex. J.
(Sealed). That record also contained Plaintiffs
personal identifiers, including his Social Security
Number (“SSN”), date of birth, and other personal
information. Id. The discovery documents, including
the motor vehicle record, were not filed under seal,
and Plaintiffs personal information was not redacted
from the filing. Moore Dep. 35:8-9, ECF No. 41; Compl.
5, ECF No. 1.

12a

On the day of trial, Plaintiff moved to dismiss his
traffic citation, in part, because Moore, according to
Plaintiff, had intentionally withheld evidence.
Phelps's Cross Mot. Summ. J., Ex. C, ECF No. 22-3,
PagelD ## 162-68. In support of the motion Plaintiff
filed a copy of the produced discovery, which contained
the same unredacted copy of Plaintiffs motor vehicle
record that was originally filed by Moore. Moore Dep.
93:10-94:6, ECF No. 41. The Municipal Court denied
the motion to dismiss, and the case continued to trial.
Ultimately, Plaintiff was convicted. See State v.
Vincent Lucas, 14TRD0765-A (unpublished) (upheld
on appeal).
Years later, Plaintiff realized that the discovery
documents in his traffic case were unredacted,
unsealed, and thus available to the public. Compl. 2,
ECF No. 1. He found that out when he went to the
Municipal Courts Clerk's Office and requested to see
a copy of his complete file. Pl.'s Mot. Summ. J. 2-3,
ECF No. 48. Upon receiving a copy of his file with
Moore's unredacted discovery disclosure included,2
Plaintiff commenced the present lawsuit, id.
Plaintiff contends that when Moore filed an
unredacted, unsealed copy of Plaintiffs motor vehicle
record with the Municipal Court, she disclosed
Plaintiffs personal information to the public in
violation of the DPPA. See generally Compl., ECF No.
2 The parties dispute whether the unredacted motor vehicle
record included in the file that Plaintiff viewed at the Clerk's
Office was the copy Moore filed with her discovery production or
the copy that Plaintiff filed along with his motion to dismiss the
traffic violation. Df.'s Mot. Summ. J. 3-4, ECF No. 45; Pl.'s Mot.
Summ. J. 2-3, ECF No. 48. Construing the facts in the light most
favorable to Plaintiff, as the Court must for Defendants' motion
for summary judgment, the Court assumes that the copy Plaintiff
viewed with his file was the copy filed by Moore.

13a
1. He seeks damages and injunctive relief against
Moore and the City of Newark as Moore's employer.
Id. at 7-8.
II. STANDARD OF REVIEW
A party is entitled to summary judgment if he or
she “shows that there is no genuine dispute as to any
material fact and [he or she] is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). When reviewing
a summary judgment motion, the Court draws all
reasonable inferences in favor of the nonmoving party
and refrains from making credibility determinations
or weighing the evidence. Pittman v. Cuyahoga Cty.
Dep't of Children and Family Servs., 640 F.3d 716, 723
(6th Cir. 2011). Summary judgment will not he if the
dispute about a material fact is genuine, “that is, if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., All U.S. 242, 248, 106 S.Ct. 2505, 91
L.Ed.2d 202 (1986); Barrett v. Whirlpool Corp., 556
F.3d 502, 511 (6th Cir. 2009). Thus, the central issue
is “whether the evidence presents a sufficient
disagreement to require submission to a jury or
whether it is so one-sided that one party must prevail
as a matter of law.” Pittman, 640 F.3d at 723 (quoting
Anderson, All U.S. at 251-52, 106 S.Ct. 2505).
The standard of review for cross motions for
summary judgment does not differ from the standard
applied when a motion is filed by one party to the
litigation. Taft Broad. Co. v. United States, 929 F.2d
240, 248 (6th Cir. 1991). Each party bears the burden
of establishing that no genuine issue of material fact
exists and that it is entitled to judgment as a matter
of law. The fact that one party fails to satisfy that
burden does not indicate that the opposing party is
entitled to summary judgment on its motion. Rather,

14a
courts “evaluate each motion on its own merits and
view all facts and inferences in the light most
favorable to the nonmoving party.” Hensley v.
Gassman, 693 F.3d 681, 686 (6th Cir. 2012) (quoting
Wiley v. United States, 20 F.3d 222, 224 (6th Cir.
1994)).
III. ANALYSIS
The DPPA “regulates the disclosure of personal
information contained in the records of state motor
vehicle departments.” Reno v. Condon, 528 U.S. 141,
143, 120 S.Ct. 666, 145 L.Ed.2d 587 (2000). It
prohibits a state department of motor vehicles
(“DMV”) from “knowingly disclos[ing] or otherwise
mak[ing] available to any person or entity... personal
information” or “highly restricted personal
information. . . obtained by the [DMV] in connection
with a motor vehicle record,” unless the disclosure is
made for a specific purpose permitted by the statute.
18 U.S.C. § 2721(a). And the DPPA prohibits
“authorized recipients] of personal information” from
reselling or redisclosing the information for a use not
permitted by the statute. Id. § 2721(c). The statute
creates a private right of action against any “person
who knowingly obtains, discloses or uses personal
information, from a motor vehicle record, for a purpose
not permitted” by the statute. Id. § 2724(a).
Under the DPPA, “personal information” is
defined as any “information that identifies an
individual, including an individual's photograph,
social security number, driver identification number,
name, address (but not the 5-digit zip code), telephone
number, and medical or disability information, but
does not include information on vehicular accidents,
driving violations, and driver's status.” Id. § 2725(3).
“Highly restricted personal information” means “an

15a
individual's photograph or image, social security
number, medical or disability information[.]” Id. §
2725(4).
The statute lists fourteen permissible purposes for
which personal information in a motor vehicle record
may be disclosed, obtained, or used. Id. § 2721(b). Two
permissible purposes are relevant here:
(1) For use by any governmental agency,
including any court or law enforcement
agency, in carrying out its functions, or any
private person or entity acting on behalf of a
Federal, State, or local agency in carrying out
its functions.
(4) For use in connection with any civil,
administrative,
or
arbitral
criminal,
proceeding in any Federal, State, or local court
or agency . .. including the service of process,
investigation in anticipation of litigation, and
the execution or enforcement of judgments
and orders [.]
Id. §§ 2721(b)(1), (4). Plaintiff bears the burden of
proving that his personal information was used for an
impermissible purpose under the DPPA. Thomas v.
George, Hartz, Lundeen, Fulmer, Johnstone, King &
Stevens, P.A., 525 F.3d 1107, 1111 (11th Cir. 2008)
(“In reading § 2724(a) and § 2721(b) together, we
conclude that the DPPA is silent on which party
carries the burden of proof and, as such, the burden is
properly upon the plaintiff.”).
The Court addresses Plaintiffs claims against
Phelps, Moore, and the City in turn.
A. Phelps
As an initial matter, Phelps asserts that she is
entitled to absolute quasi-judicial immunity on

16a
Plaintiffs claim against her because entering
Plaintiffs personal information into the Municipal
Court's case management system was part and parcel
of her official duties of overseeing the Court's docket.
The court agrees that it seems Phelps is entitled to
“absolute quasi-judicial immunity for damages as
[her] duties are related to the [Municipal C]ourt's
judicial process.” Mwonyonyi v. Gieszl, 895 F.2d 1414
(Table), 1990 WL 10713, *2 (6th Cir. Feb. 9, 1990).
This conclusion does not resolve Plaintiffs claim for
injunctive relief,3 however, or Plaintiffs claim for
vicarious liability against the City. Accordingly, the
Court addresses whether Phelps's disclosure of
Plaintiffs information in fact violates the DPPA.
In a way, the Court's previous Opinion and Order
on Licking County's motion to dismiss could resolve
the parties' motions for summary judgment on
Plaintiffs claim against Phelps in short order. When
it granted Licking County's motion to dismiss, the
Court stated that among its reasons for doing so was
Plaintiffs failure to allege that Phelps disclosed
Plaintiffs personal information on the Municipal
Court's website for an impermissible purpose. Op. &
Order 6, ECF No. 32. As the Court explained in that
Opinion:
[UJnder the DPPA, personal information may
be disclosed “[f]or use by any government
agency, including any court or law
enforcement agency, in carrying out its
3 The Court construes Plaintiffs request for an order enjoining
the Municipal Court from disclosing his personal information on
the public docket, Compl. 8, ECF No. 1, as an identical request
as to Phelps, since Phelps is the Clerk of Court responsible for
entering this information in the system in the first place.
Plaintiff also asserts in his Response that he is bringing a claim
for injunctive relief against Phelps. Resp. 12, ECF No. 25.

17a
functions[.]” 18 U.S.C. § 2721(b)(1). Further,
personal information may be disclosed “[f)or
use in connection with any civil, criminal,
administrative, or arbitral proceeding in any .
. . local court or agency[.]” 18 U.S.C. §
2721(b)(4). Here, Plaintiff's name, address,
and date of birth were published on the
summary report of Plaintiffs traffic case on
the Licking County Municipal Court's
website. While there could conceivably be
instances where personal information is
published that is not in connection with the
case, that is not the case here. As a matter of
common sense, a court and the public, who is
entitled to open access to the courts, need to
be able to identify and differentiate between
potential litigants with the same name. The
mere publication of a name and address in the
summary report of Plaintiffs traffic case is not
the type of disclosure that Congress intended
to prohibit under the DPPA. See e.g.,
Protecting Driver Privacy: Hearing on H.R.
3365 Before the Subcomm. on Civil and
Constitutional Rights of the House Comm, on
the Judiciary, 103d Cong., 2d Sess., 1994 WL
212698 (1994) (statement of Congressman
James P. Morgan) (“Careful consideration was
given to the common uses now made of this
information and great efforts were made to
ensure that those uses were allowed under
this bill. . . [including] for use in any civil or
criminal proceeding.”). The Court therefore
finds that publishing Plaintiffs name and
address as part of the docket heading for his
traffic case is a permissible use under 18
U.S.C. §§ 2721(b)(1) and (4).

18a
Id. at 6-7. Although that conclusion should be
dispositive of Plaintiffs claim against Phelps, the
Court arrived at that conclusion when considering
Licking County's motion to dismiss only—Phelps did
not file her own motion to dismiss. Accordingly, it is
only now, after receiving the parties' cross motions for
summary judgment, that the Court may fully consider
the parties' arguments in relation to Plaintiffs claim
against Phelps.
After doing so, however, the Court sees no reason
to revisit the conclusion reached in its previous
Opinion and Order. For the reasons stated above,
Phelps's disclosure of Plaintiff's personal information
on the Municipal Court's website was for a permissible
purpose under subsections (b)(1) and (b)(4). In
addition to those reasons, as Phelps explains now,
maintaining a public docket allows defendants to
“access their case file, make payments, see hearing
dates, or obtain information about the case.” Phelps
Aff., Ex. B, K 9, ECF No. 22-2. Additionally, the
Municipal Court makes “[a] defendant's name,
address, and date of birth,” but not license plate
number, “viewable so that a person can verify they are
viewing the docket related to their citation.” Id. If If 1012.
Plaintiff argues that the Municipal Court could
have restricted the accessibility of the information on
the public docket in various ways such as by
“print[ing] a unique password on each traffic ticket” so
that only the defendant would have access to the
online docket. Mot. 4, ECF No. 16. But Plaintiffs
arguments have to do with the “best practices” for case
management—practices which the statute does not
regulate. Senne v. Vill. of Palatine, HI., 695 F.3d 597,
606 n.12 (7th Cir. 2012) (“We... emphasize that we do
not read 'use' [in the DPPA] to mean 'necessary use,'

19a
nor do we require the [defendant] to adopt some form
of 'best practices' not commanded by the statute.”).
Plaintiff thus fails to carry his burden of showing that
Phelps used or disclosed his personal information for
a purpose not allowed by the DPPA.
Even setting aside the purpose for the use and
disclosure of Plaintiffs personal information,
Plaintiffs claim would fail for another reason not
addressed in the Court's previous Opinion and Order.
Plaintiffs personal information, as Phelps received it,
did not come from a motor vehicle record. Instead, it
came from a police officer's traffic citation. Again, the
DPPA prohibits the disclosure of personal information
“from a motor vehicle record” for a purpose not
permitted by the statute. 18 U.S.C. § 2724(a). And the
statute defines a “motor vehicle record” as “any record
that pertains to a motor vehicle operator’s permit,
motor vehicle title, motor vehicle registration, or
identification card issued by a department of motor
vehicles.” Id. § 2725(1). Traffic citations do not pertain
to documents issued by a department of motor
vehicles. Therefore, they do not count as “motor
vehicle records.” See Whitaker v. Appriss, Inc., No.
3:13-CV-826-RLM-CAN, 2014 WL 4536559, *3 (N.D.
Ind. Sept. 11, 2014) (“[A] ticket, issued by [a]... police
department, [is not] a motor vehicle record.” (citing
Senne, 695 F.3d at 602-03,609)). When Phelps entered
into the Municipal Court's case management system
the information that appeared on Plaintiffs traffic
citation, she did not use or disclose personal
information “from a motor vehicle record.” 18 U.S.C. §
2721(b).
A district court case from the Northern District of
Illinois does not persuade the Court to interpret the
DPPA differently. In Pavone v. Law Offices ofAnthony
Mancini, Ltd., 205 F. Supp. 3d 961, 964 (N.D. Ill.

20a
2016), the district court held that an attorney who
sent a solicitation letter to a recently wrecked motorist
could be liable under the DPPA for using the
motorist's personal information for an impermissible
purpose even if the attorney obtained that information
from a crash report on a third-party website instead of
from a motor vehicle record. The court concluded that
the DPPA protects any information that originates
from a motor vehicle record, to (“[Tjf the original
source of the other government agency's information
is the state department of motor vehicles, the DPPA
protects the information throughout its travels.”)
(alteration in original; emphasis added) (quoting
Whitaker, 2014 WL 4536559 at *4). The Pavone court
therefore concluded that the attorney could be liable
for using the motorist's information for an
impermissible purpose if he knew that the
information in the crash report originated from the
state's DMV as opposed to any other source. Id.
The Pavone court's interpretation of the statute,
however, is inconsistent with the statute's plain
language. By its unambiguous terms, the DPPA
governs the “o£ficer[s], employee[s], or contractor[s]” of
state departments of motor vehicles who “disclose or
otherwise make available” personal information from
a motor vehicle record as well as the DMV's
“authorized recipient[s]” of a motor vehicle record who
“resell or redisclose the [personal] information”
contained therein. 18 U.S.C. § 2721(a), (c). No
statutory language brings in those who receive
personal information from a source other than a motor
vehicle record. For a non-DMV officer, employee, or
contractor to fall within the DPPA's coverage, the
individual must obtain another's personal information
directly “from a motor vehicle record.” Id. § 2724(a).
See Maracich v. Spears, 570 U.S. 48, 51, 133 S.Ct.

21a
2191, 186 L.Ed.2d 275 (2013) (explaining that the
DPPA covers the “obtaining [of] personal information
from a state DMV” (emphasis added)); see also Mattivi
v. Russell, No. 01-WM-533(BNB), 2002 WL 31949898,
*4 (D. Colo. Aug. 2, 2002) (dismissing a DPPA claim
against a state newspaper for the release of personal
information contained in a traffic citation because the
DPPA only covers information contained in “records
issued by a department of motor vehicles”). This
interpretation is also consistent with the dual
purposes behind the statute's enactment: “a growing
threat from stalkers and criminals who could acquire
personal information from state DMVs” and “the
States' common practice of selling personal
information to businesses engaged in direct
marketing and solicitation.” Maracich, 570 U.S. at 57,
133 S.Ct. 2191 (emphasis added).
Accordingly, the Court rejects the reasoning
adopted by Pavone and finds that because Phelps
obtained Plaintiffs personal information from a traffic
citation, not a motor vehicle record, she cannot be
liable under the DPPA. But even if Phelps had
received Plaintiffs personal information from a motor
vehicle record, there is no dispute of material fact that
she used and disclosed it for a permissible purpose
under 18 U.S.C. §§ 2721(b)(1) and (4). For these
reasons, the Court GRANTS Phelps's motion for
summary judgment and DENIES Plaintiffs motion
for summary judgment.
B. Moore
As an initial matter, Moore argues that she is
entitled to prosecutorial immunity on Plaintiffs claim
for damages against her. The Court agrees. See Adams
v. Hanson, 656 F.3d 397, 402 (6th Cir. 2011). But, just
as with Phelps, the Court proceeds to consider the
merits of Plaintiffs DPPA claim against Moore

22a
anyway, because doing so is necessary to resolve
Plaintiffs claims for injunctive relief against Moore
and for vicarious liability against the City.
The parties do not dispute that Moore used and
disclosed Plaintiffs personal information that she
obtained from a motor vehicle record. Indeed, the
record clearly establishes that Plaintiffs personal
information was included in the motor vehicle record
contained within Moore's discovery response. Thus,
Plaintiffs claim against Moore comes down to whether
Moore's use and disclosure fell within one of the
DPPA's permissible purposes. There is no dispute of
material fact that it did.
Like Phelps, Moore used and disclosed Plaintiffs
personal information for purposes permitted by 18
U.S.C. §§ (b)(1) and (b)(4): for use by a government
agency in carrying out its functions, (b)(1), and for use
in connection with a criminal proceeding, (b)(4). When
Moore turned over the motor vehicle document
containing his personal information, she did so in
response to Plaintiffs discovery request. Responding
to a discovery request is a necessary part of the
prosecutorial functions of Moore's agency, (b)(1), and
an integral component of criminal proceedings, (b)(4).
Additionally, by filing the discovery response on the
docket, Moore furthered her agency's common practice
of creating a record with the court in the event of a
discovery dispute. Moore Dep. 42:24-25, ECF No. 41;
Ex. E, ECF No. 41-6. In fact, a discovery dispute
actually occurred in Plaintiffs traffic case. Df.'s Mot.
Summ. J. 5-6, ECF No. 45; Pl.'s Mot. Summ. J. 10-11,
ECF No. 48. Moore's discovery filing on the Municipal
Court's docket created the record that aided the
Judge's resolution of the parties' dispute. So docketing
the discovery response further accomplished the
permissible purposes of subsections (b)(1) and (b)(4)—

23a
it aided Moore's agency in carrying out its
prosecutorial functions and in resolving the parties'
discovery disputes during a criminal proceeding.
Moore's use and disclosure of Plaintiffs personal
information was thus permissible under the DPPA.
Plaintiff does not dispute that, as a general
matter, it was permissible for Moore to disclose
Plaintiffs personal information to him, as the
defendant entitled to discovery. But Plaintiff asserts
that, under the DPPA, his personal information
should have been redacted from the motor vehicle
record included in the docket filing or that the entire
discovery response should have been filed under seal.
For this position, Plaintiff relies on the Supreme
Court's statement in Maracich that the DPPA's
exceptions to the general prohibition against
disclosure of personal information should be “read
narrowly” in order to preserve “the DPPA's purpose of
protecting an individual's right to privacy in his or her
motor vehicle records.” 570 U.S. at 60-61, 133 S.Ct.
2191 (ellipsis omitted). Under an appropriately
narrow interpretation of the (b)(1) and (b)(4)
exceptions, Plaintiff asserts, Moore must be able to
demonstrate why filing his personal information on
the public docket was necessary to further the
prosecution of his case and thus justified overriding
his privacy interest in his personal information. Mot.
6, ECF No. 48. Plaintiff further contends that, because
Moore has not offered a good reason for the
unredacted and unsealed public filing sufficient to
override his privacy interest, Moore's filing violates
the DPPA.
Plaintiff raises legitimate concerns regarding the
protection of sensitive information in court filings. Yet
those concerns do not support his overly narrow
reading of the DPPA's exceptions. Under Plaintiffs

24a
interpretation of the DPPA's exceptions, a use or
disclosure of personal information is never
permissible if a greater range of people gain access to
an individual's personal information than was
absolutely necessary to achieve the purpose for which
it was used or disclosed. The text of the DPPA,
however, does not support that interpretation. The
DPPA simply states that a “recipient of personal
information. . . may resell or redisclose the
information only for a use permitted under subsection
(b)[.]” 18 U.S.C. § 2721(c). Subsection (b), in turn,
states that disclosure of personal information is
permissible when it is “[f|or use by any government
agency... in carrying out its functions,” (b)(1), or “[f|or
use in connection with any... criminal... proceeding,”
(b)(4). The statute's text thus makes the permissibility
of the use or disclosure of personal information
dependent upon the overarching purpose for the use
or disclosure, not on the potential range of people who
might have access to information as a result of the use
or disclosure. As the Sixth Circuit has recognized,
Congress wrote the DPPA “in a way that logically
put[s] the focus on the purpose for which the
information would eventually be used.” Wiles v. Ascom
Transp. Syst., Inc., 478 F. App'x 283, 291 (6th Cir.
2012) (quoting Howard v. Criminal Info. Servs., Inc.,
654 F.3d 887, 891 (9th Cir. 2011)). Plaintiff fails to
show that Moore's permissible use and disclosure of
Plaintiffs information—to respond to his discovery
request and create a court record—became
impermissible because the filing was unredacted and
unsealed and thus became accessible to a larger group
of people than was absolutely necessary.
In different settings, court have held that if a
company obtains more personal information than may
be necessary to further its permissible business uses,

25a
that does not invalidate the permissible use for which
the information was obtained in the first place. See,
e.g., Wiles, 478 F. App'x at 290-91 (concluding that
bulk obtainment of a DMV's database for a company
to verify personal information submitted by potential
future customers (i.e., “stockpiling” of personal
information) was permissible under the DPPA's
business exception). Similarly, if an individual's
personal information is disclosed to a wider audience
than is absolutely necessary to further a permissible
use, that does not alter the fact that the use itself was
permissible. Cf. Senne v. Vill. of Palatine, 6 F. Supp.
3d 786, 794, 797 (N.D. Ill. 2013) (finding that it was
permissible, under the DPPA's law enforcement
exception, to disclose personal information on a
parking ticket placed on an individual's windshield
when displaying that information could be helpful to
other police officers attempting to verify an offender's
identity, despite the fact that the information also
became publicly viewable as a result of the disclosure).
This conclusion is not inconsistent with the
Supreme Court's reading of the DPPA in Maracich. It
is true, as Plaintiff argues, that the Maracich Court
held that the exceptions to the DPPA's general use
and disclosure prohibitions must be read narrowly.
Maracich, 570 U.S. at 60, 133 S.Ct. 2191. But in that
case, the Court ruled that an entire category of uses—
an attorney's solicitation letters to potential clients—
fell outside of the statute's exception allowing
personal information to be used “in connection with ..
. investigation in anticipation of litigation.” Id. at 59,
133 S.Ct. 2191. Here, Plaintiff does not suggest that
using and disclosing personal information for
discovery purposes is impermissible under the DPPA
as a categorical matter. He argues instead that his
personal information should have been redacted from

26a
the discovery filing. But whether Plaintiff's personal
information was redacted does not alter the
underlying purpose for which it was used and
disclosed.
This is not to de-legitimize Plaintiffs concerns
about how Moore handled the disclosure of sensitive
personal information—particularly his social security
number—in the course of Plaintiff's traffic proceeding.
It may be advisable and generally good practice for
prosecutors to redact highly sensitive information
such as SSNs from all publicly filed records. The
DPPA, however, does not impose any “best practice”
requirements on the handling of sensitive personal
information that is used or disclosed for a permissible
purpose. See Senne, 695 F.3d at 606 n.12. Other state
sources, applicable to all Ohio courts, do impose such
“best practice” requirements. Ohio Sup. R. 1(A),
45(D)(1) (“When submitting a case document to a
court or filing a case document with a clerk of court, a
party to a judicial action or proceeding shall omit
personal identifiers from the document.”). Plaintiff
asserts that Moore's public filing ran afoul of Ohio
Rule of Superintendence 45(D)(1). Whether it did,
however, has no bearing on whether the disclosure
was permissible under the DPPA; therefore, the Court
does not consider that argument here.
But in any event, the DPPA is an ineffective tool
for curing Plaintiffs privacy concerns over the public
filing of documents containing his personal
information. It is helpful to remember that the DPPA
targets only one document contained in Moore's
discovery response: Plaintiffs motor vehicle record.
Notably, though, Moore's discovery response
contained other documents—namely, Plaintiffs traffic
citation—that include much of the same personal
information (i.e., Plaintiffs name, address, and birth

27a
date) appearing in Plaintiff’s one-page motor vehicle
record targeted by this litigation. Ex. E, ECF No. 41-6
(Sealed). Plaintiff does not assert that Moore should
have redacted the personal identifying information in
his traffic citation. (Indeed, he cannot, since his traffic
citation is not a motor vehicle record.) He argues only
that Moore should have redacted the personal
Information in his one-page motor vehicle record.
Compl. 2, ECF No. 1; Mot. Summ. J. 2-3, ECF No. 48.
However, because much of Plaintiffs personal
information would be easily accessible in other
portions of his public case record, that redaction would
still not achieve the privacy-protection goal Plaintiff is
after.
At the end of the day, there is no dispute of
material fact that Moore used and disclosed Plaintiff's
personal information for permissible purposes under
18 U.S.C. §§ 2721(b)(1) and (4). Accordingly, the Court
DENIES Plaintiff’s motions for summary judgment as
to his claim against Moore and GRANTS Moore's
motion for summary judgment.
C. The City
Plaintiff also brings a DPPA claim against the
City, as Phelps's and Moore's employer, under a
theory of vicarious liability for Phelps's and Moore's
alleged violations of the DPPA. The DPPA itself is
silent as to whether vicarious liability applies to
DPPA claims. No circuit court has addressed the
issue, and the district courts to have done so are split.
Orduno v. Pietrzak, No. CV 14-1393 ADM/DTS, 2017
WL 4354686, at *5 (D. Minn. Sept. 29, 2017)
(collecting cases), aff'd, 932 F.3d 710 (8th Cir. 2019).
The Court need not address whether the DPPA allows
for vicarious liability, however, because there is no
dispute of material fact that neither Phelps nor Moore
violated the statute. Therefore, the City cannot be

28a
vicariously liable for their actions. See, e.g., Morgan v.
Niles, 250 F. Supp. 2d 63, 75 (N.D.N.Y. 2003).
Accordingly, the Court DENIES Plaintiffs motion for
summary judgment as to his claim against the City
and GRANTS the City's motion for summary
judgment.
IV. PLAINTIFF'S MOTION FOR LEAVE TO
AMEND
Finally, Plaintiff seeks leave to amend his
Complaint. Mot., ECF No. 36. The motion in support
of leave to amend reads more like a motion for
reconsideration of the Court's Opinion and Order
dismissing Licking County from the case than a
motion for leave to amend. First, Plaintiff raises
arguments
regarding
Congress's
additional
motivation for enacting the DPPA and whether birth
dates are included in the category of personal
information that the statute protects. Id. at 1-7.
Plaintiff asserts that he wants to add allegations in
the Complaint that any person can use another's
license plate numbers to look up their personal
information on the Municipal Court's website and that
a date of birth is a personal identifier. Id. Second,
Plaintiff argues that Moore receives part of her salary
from Licking County and that this fact was made
known to Plaintiff only after receiving certain
discovery documents from Defendants. Id. at 7.
Therefore, Plaintiff asserts that Licking County is
legally responsible for Moore's actions and his
Complaint should be amended to add these facts and
restore Licking County as a defendant in the case. Id.
The Court denies Plaintiff’s motion for leave to
amend because any amendment on these grounds
would be futile. Fed. R. Civ. P. 15(a); Parchman v.
SLM Corp., 896 F.3d 728, 736 (6th Cir. 2018).

29a
Plaintiff’s additional allegations regarding the use of
license plate numbers and birth dates have no bearing
on the Court's determination that Phelps (and thus
Licking County) neither received Plaintiff's personal
information from a motor vehicle record nor used that
information for a purpose not permitted by the DPPA.
Moreover, whether Licking County may be considered
legally responsible for Moore's actions is irrelevant
because the Court concludes that Moore's actions did
not run afoul of the DPPA. Accordingly, Plaintiff’s
motion for leave to amend, ECF No. 36, is DENIED.
V. CONCLUSION
For all these reasons, the Court DENIES
Plaintiff's motions for summary judgment, ECF Nos.
16, 48, and 49, DENIES Plaintiff's motion for leave to
amend, ECF No. 36, and GRANTS Defendant's
motions for summary judgment, ECF Nos. 22 and 45.
The Clerk shall enter final judgment for Defendants
and terminate this case.
IT IS SO ORDERED.
s/Michael H. Watson
MICHAEL H. WATSON, JUDGE
UNITED STATES DISTRICT COURT

30a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Vincent Lucas,
Plaintiff,

Case No. 2:18-cv-582

v.

Judge Michael H. Watson

Tricia Moore, et al.,
Defendants.

Magistrate Judge Chelsey
M. Vascura

OPINION AND ORDER
Vincent Lucas (“Plaintiff’), proceeding without
the assistance of counsel, brings this action under the
Driver’s Privacy Protection Act (“DPPA”), 18 U.S.C. §§
2721 et seq., against Tricia Moore (“Moore”), Marcia J,
Phelps (“Phelps”), Licking County, Ohio, and the City
of Newark, Ohio. Licking County, Ohio moves to
dismiss Plaintiff s claim against it under Federal Rule
of Civil Procedure 12(b)(6) for failure to state a claim
upon which relief can be granted. ECF No. 7. For the
following reasons, the Court GRANTS Licking
County’s motion.
I. FACTS
The following facts are taken from Plaintiffs
Complaint, ECF No. 1, and are assumed true for
purposes of this Opinion and Order.
On July 4,2014, Plaintiff was charged with a
minor misdemeanor traffic offense. Compl. t 5, ECF
No. 1. Plaintiff disputed the charge and demanded a

32a
County... finds objectionable, then Licking County...
could force the Clerk to remove the information by
defunding the website if the Clerk refuses.” Id. ^ 45.
II. STANDARD OF REVIEW
Dismissal pursuant to Rule 12(b)(6) is proper if
the complaint falls to state a claim upon which the
Court can grant relief. Fed. R. Civ. P. 12(b)(6). The
Court must construe the pleading in favor of the party
asserting the claim, accept the factual allegations
contained therein as true, and determine whether
those factual allegations present a plausible claim for
relief. See Bell All. Corp. v. Twombly, 550 U.S. 554,
555 (2007). In doing so, however, a plaintiff must
provide “more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do.” Id. at 555; see also Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (“Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice.”); Ass’n of
Cleveland Fire Fighters v. City of Cleveland, 502 F.3d
545, 548 (6th Cir. 2007). “[A] naked assertion ... gets
the complaint close to stating a claim, but without
some further factual enhancement it stops short of the
line between possibility and plausibility ...” Twombly,
550 U.S. at 557. Thus, “something beyond the mere
possibility of [relief must be alleged.” Id. at 557-58.
“While pro se pleadings are to be liberally
construed and held to less stringent standards than
formal pleadings drafted by lawyers,” they must still
“contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.”
Huber v. Ohio, 920 F. Supp. 2d 858, 860 (S.D. Ohio
2012) (internal quotation marks and citations
omitted). To be considered plausible, a claim must be
more than merely conceivable. Twombly, 550 U.S. at
570; Ass’n of Cleveland Fire Fighters, 502 F.3d at 548.

33a
“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Iqbal, 556 U.S. at 678
(2009).
III. ANALYSIS
The DPPA “regulates the disclosure of personal
information contained in the records of state motor
vehicle departments.” Reno v. Condon, 528 U.S. 141,
143 (2000). It creates a cause of action against “[a]
person who knowingly obtains, discloses or uses
personal information, from a motor vehicle record, for
a purpose not permitted under this chapter [18 USCS
§§ 2721 et seq.].” 18 U.S.C. § 2724(a).
Under the DPPA, “personal information” is
defined as any “information that identifies an
individual, including an individual’s photograph,
social security number, driver identification number,
name, address (but not the 5-diglt zip code), telephone
number, and medical or disability information, but
does not include information on vehicular accidents,
driving violations, and driver’s status.” 18 U.S.C. §
2725(3). “Highly restricted personal information”
means “an individual’s photograph or image, social
security number, medical or disability information[.]”
18 U.S.C. § 2725(4).
Plaintiff has the burden of proving that disclosure
of the personal information was for a purpose not
permitted under the DPPA. Thomas v. George, Hartz,
Lundeen, Fulmer, Johnstone, King & Stevens, P.A.,
525 F.3d 1107, 1111 (11th Cir. 2008) (“In reading §
2724(a) and § 2721(b) together, we conclude that the
DPPA is silent on which party carries the burden of
proof and, as such, the burden is properly upon the
plaintiff.”). Personal information may be disclosed for,
inter alia, “use by any governmental agency, including

34a
any court or law enforcement agency, in carrying out
its functions “ or “in connection with any civil,
criminal, administrative, or arbitral proceeding in any
... local court or agency ....” 18 U.S.C. § 2721(b)(1), (4).
Here, Plaintiffs Complaint fails to describe how
Phelps made his name, address, and date of birth2
available to the public on the Licking County
Municipal Court website, but the Court takes judicial
notice of the fact that said information is available on
the summary report of Plaintiffs traffic case on the
Licking County Municipal Court’s website. Licking
County Municipal Court TR Case 14TRD07065. It is
presumably this publication to which Plaintiff refers,
and he seeks to hold Licking County liable for this
publication of his personal information.
Plaintiffs claim against Licking County fails,
however, because his assertion that Phelps
“knowingly disclosed personal information from a
motor vehicle record for a purpose not permitted by
the DPPA,” Compl. f 38, EOF No. 1, is a legal
conclusion the Court need not accept as true. Rather,
as mentioned above, under the DPPA, personal
information may be disclosed “[f]or use by any
government agency, including any court or law
enforcement agency, in carrying out its functions!.]”
18 U.S.C, § 2721(b)(1). Further, personal information
may be disclosed “[f|or use in connection with any
civil, criminal, administrative, or arbitral proceeding
in any... local court or agency[.]” 18 U.S.C. §
2721(b)(4). Here, Plaintiffs name, address, and date
of birth were published on the summary report of
Plaintiffs traffic case on the Licking County
Municipal Court’s website. While there could
2 Date of birth is not personal or highly personal information
under the statute. See 18 U.S.C. § 2725(3),(4).

35a
conceivably be instances where personal information
is published that is not in connection with the case,
that is not the case here. As a matter of common sense,
a court and the public, who is entitled to open access
to the courts, need to be able to identify and
differentiate between potential litigants with the
same name. The mere publication of a name and
address in the summary report of Plaintiffs traffic
case is not the type of disclosure that Congress
intended to prohibit under the DPPA. See e.g..
Protecting Driver Privacy: Hearing on H.R. 3365
Before the Subcomm. on Civil and Constitutional
Rights of the House Comm, on the Judiciary, 103d
Cong., 2d Sess., 1994 WL 212698 (1994) (statement of
Congressman
James
P.
Morgan)
(“Careful
consideration was given to the common uses now
made of this information and great efforts were made
to ensure that those uses were allowed under this
bill... [including] for use in any civil or criminal
proceeding.”). The Court therefore finds that
publishing Plaintiff’s name and address as part of the
docket heading for his traffic case is a permissible use
under 18 U.S.C. §§ 2721(b)(1) and (4).
Accordingly, Licking County cannot be held liable
under the DPPA for Phelps’ alleged disclosure of
Plaintiffs personal information or for failing to
require Phelps to remove the information. Cf.
Freiermuth v. Town of Thermopolis, No. 09-CV-202-B,
2010 WL 11601713, at *5 (D. Wyo. July 23, 2010)
(dismissing DPPA claim against a state, police chief,
and judge, pursuant to 18 U.S.C. § 2721(b)(1) and (4),
where Plaintiff alleged her personal information
appeared on police reports which were included in the
public record in court cases). Therefore, the Court
grants Licking County’s motion to dismiss.

36a
IV. CONCLUSION
For the preceding reasons, the Court GRANTS
Licking County’s motion to dismiss, ECF No. 7. The
Clerk is directed to remove ECF No. 7 from the Court’s
pending motions list.
IT IS SO ORDERED.
s/Michael H. Watson
MICHAEL H. WATSON, JUDGE
UNITED STATES DISTRICT COURT

37a
APPENDIX D
No. 19-4010
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
VINCENT LUCAS,
Plaintiff-Appellant,

)
)
)

v.

) ORDER

TRICIA MOORE, IN AN
INDIVIDUAL CAPACITY, ET AL,
Defendants-Appellees.

)
)
)
)

FILED
Mar 30, 2021
DEBORAH S. HUNT, Clerk
BEFORE: MOORE, ROGERS, and GRIFFIN, Circuit
Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT
s/Deborah S. Hunt_________
Deborah S. Hunt, Clerk

38a
APPENDIX E
TEXT OF DPPA
18 U.S.C. §2721. Prohibition on release and use
of certain personal information from State
motor vehicle records
(a) In General.—A State department of motor
vehicles, and any officer, employee, or contractor
thereof, shall not knowingly disclose or otherwise
make available to any person or entity:
(1) personal information, as defined in 18 U.S.C.
2725(3), about any individual obtained by the
department in connection with a motor vehicle record,
except as provided in subsection (b) of this section; or
(2) highly restricted personal information, as
defined in 18 U.S.C. 2725(4), about any individual
obtained by the department in connection with a
motor vehicle record, without the express consent of
the person to whom such information applies, except
uses permitted in subsections (b)(1), (b)(4), (b)(6), and
(b)(9): Provided, That subsection (a)(2) shall not in any
way affect the use of organ donation information on an
individual's driver's license or affect the
administration of organ donation initiatives in the
States.
information
(b) Permissible
Uses.—Personal
referred to in subsection (a) shall be disclosed for use
in connection with matters of motor vehicle or driver
safety and theft, motor vehicle emissions, motor
vehicle product alterations, recalls, or advisories,
performance monitoring of motor vehicles and dealers
by motor vehicle manufacturers, and removal of nonowner records from the original owner records of
motor vehicle manufacturers to carry out the purposes
of titles I and IV of the Anti Car Theft Act of 1992, the

39a
Automobile Information Disclosure Act (15 U.S.C.
1231 et seq.), the Clean Air Act (42 U.S.C. 7401 et
seq.), and chapters 301, 305, and 321-331 of title 49,
and, subject to subsection (a)(2), may be disclosed as
follows:
(1) For use by any government agency, including
any court or law enforcement agency, in carrying out
its functions, or any private person or entity acting on
behalf of a Federal, State, or local agency in carrying
out its functions.
(2) For use in connection with matters of motor
vehicle or driver safety and theft; motor vehicle
emissions; motor vehicle product alterations, recalls,
or advisories; performance monitoring of motor
vehicles, motor vehicle parts and dealers; motor
vehicle market research activities, including survey
research; and removal of non-owner records from the
original
owner
records
of motor
vehicle
manufacturers.
(3) For use in the normal course of business by a
legitimate business or its agents, employees, or
contractors, but only—
(A) to verify the accuracy of personal information
submitted by the individual to the business or its
agents, employees, or contractors; and
(B) if such information as so submitted is not
correct or is no longer correct, to obtain the correct
information, but only for the purposes of preventing
fraud by, pursuing legal remedies against, or
recovering on a debt or security interest against, the
individual.
(4) For use in connection with any civil, criminal,
administrative, or arbitral proceeding in any Federal,
State, or local court or agency or before any selfregulatory body, including the service of process,
investigation in anticipation of litigation, and the

40a
execution or enforcement of judgments and orders, or
pursuant to an order of a Federal, State, or local court.
(5) For use in research activities, and for use in
producing statistical reports, so long as the personal
information is not published, redisclosed, or used to
contact individuals.
(6) For use by any insurer or insurance support
organization, or by a self-insured entity, or its agents,
employees, or contractors, in connection with claims
investigation activities, antifraud activities, rating or
underwriting.
(7) For use in providing notice to the owners of
towed or impounded vehicles.
(8) For use by any licensed private investigative
agency or licensed security service for any purpose
permitted under this subsection.
(9) For use by an employer or its agent or insurer
to obtain or verify information relating to a holder of
a commercial driver's license that is required under
chapter 313 of title 49.
(10) For use in connection with the operation of
private toll transportation facilities.
(11) For any other use in response to requests for
individual motor vehicle records if the State has
obtained the express consent of the person to whom
such personal information pertains.
(12) For bulk distribution for surveys, marketing
or solicitations if the State has obtained the express
consent of the person to whom such personal
information pertains.
(13) For use by any requester, if the requester
demonstrates it has obtained the written consent of
the individual to whom the information pertains.
(14) For any other use specifically authorized
under the law of the State that holds the record, if

41a
such use is related to the operation of a motor vehicle
or public safety.
(c) Resale or Redisclosure.—An authorized
recipient of personal information (except a recipient
under subsection (b)(ll) or (12)) may resell or
redisclose the information only for a use permitted
under subsection (b) (but not for uses under subsection
(b)(ll) or (12)). An authorized recipient under
subsection (b)(ll) may resell or redisclose personal
information for any purpose. An authorized recipient
under subsection (b)(12) may resell or redisclose
personal information pursuant to subsection (b)(12).
Any authorized recipient (except a recipient under
subsection (b)(ll)) that resells or rediscloses personal
information covered by this chapter must keep for a
period of 5 years records identifying each person or
entity that receives information and the permitted
purpose for which the information will be used and
must make such records available to the motor vehicle
department upon request.
(d) Waiver Procedures.—A State motor vehicle
department may establish and carry out procedures
under which the department or its agents, upon
receiving a request for personal information that does
not fall within one of the exceptions in subsection (b),
may mail a copy of the request to the individual about
whom the information was requested, informing such
individual of the request, together with a statement to
the effect that the information will not be released
unless the individual waives such individual's right to
privacy under this section.
(e) Prohibition on Conditions.—No State may
condition or burden in any way the issuance of an
individual's motor vehicle record as defined in 18
U.S.C. 2725(1) to obtain express consent. Nothing in
this paragraph shall be construed to prohibit a State

42a
from charging an administrative fee for issuance of a
motor vehicle record.
§2722. Additional unlawful acts
(a) Procurement for Unlawful Purpose.—It shall
be unlawful for any person knowingly to obtain or
disclose personal information, from a motor vehicle
record, for any use not permitted under section
2721(b) of this title.
(b) False Representation.—It shall be unlawful for
any person to make false representation to obtain any
personal information from an individual’s motor
vehicle record.
§2723. Penalties
(a) Criminal Fine.—A person who knowingly
violates this chapter shall be fined under this title.
(b) Violations by State Department of Motor
Vehicles.—Any State department of motor vehicles
that has a policy or practice of substantial
noncompliance with this chapter shall be subject to a
civil penalty imposed by the Attorney General of not
more than $5,000 a day for each day of substantial
noncompliance.
§2724. Civil action
(a) Cause of Action.—A person who knowingly
obtains, discloses or uses personal information, from a
motor vehicle record, for a purpose not permitted
under this chapter shall be liable to the individual to
whom the information pertains, who may bring a civil
action in a United States district court.
(b) Remedies.—The court may award—
(1) actual damages, but not less than liquidated
damages in the amount of $2,500;
(2) punitive damages upon proof of willful or
reckless disregard of the law;

43a
(3) reasonable attorneys’ fees and other litigation
costs reasonably incurred; and
(4) such other preliminary and equitable relief as
the court determines to be appropriate.
§2725. Definitions
In this chapter—
(1) “motor vehicle record” means any record that
pertains to a motor vehicle operator's permit, motor
vehicle title, motor vehicle registration, or
identification card issued by a department of motor
vehicles;
(2) “person” means an individual, organization or
entity, but does not include a State or agency thereof;
(3) “personal information” means information that
identifies an individual, including an individual's
photograph,
social security number, driver
identification number, name, address (but not the 5digit zip code), telephone number, and medical or
disability information, but does not include
information on vehicular accidents, driving violations,
and driver's status.1
(4) “highly restricted personal information” means
an individual's photograph or image, social security
number, medical or disability information; and
(5) “express consent” means consent in writing,
including consent conveyed electronically that bears
an electronic signature as defined in section 106(5) of
Public Law 106-229.

1 So in original. The period probably should be a semicolon

